                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

Case Number: AI0060044                                                                       Page I of I



                 We received an allegation of plagiarism in an NSF proposal. 1 We reviewed that proposal,
        along with some of the subject's2 other proposals and sent the subject an inquiry letter. The
        institution notified us the subject ha9 tenninated his employment and returned to his home country.
                                                                                               3
                  In reviewing the subject's NSF history, we noticed he also had an active award. Because an
        alternative PI had not been named, we asked the institution for documentation regarding award
        expenses. A review of those documents identified nothing of concern. Given the small amount of
        plagiarism and the subject's relocation to his home country, the case is closed.




NSF OlG Fonn 2 (11102)


                              ··C'
